                      U.S. Department of Agriculture

                         Office of Inspector General
                                    Northeast Region




             Audit Report

Assessment of USDA’s Controls to Ensure
Compliance with Beef Export Requirements




                            Report No. 50601-06-Hy
                                         July 2009
                           UNITED STATES DEPARTMENT OF AGRICULTURE
                                      OFFICE OF INSPECTOR GENERAL
                                           Washington D.C. 20250




July 15, 2009

REPLY TO
ATTN OF:        50601-06-Hy

TO:             Alfred V. Almanza
                Administrator
                Food Safety and Inspection Service

                David R. Shipman
                Acting Administrator
                Agricultural Marketing Service

ATTN:           William C. Smith
                Assistant Administrator
                Office of Program Evaluation, Enforcement and Review

                Kevin L. Richardson
                Director, Planning and Accountability
                Compliance and Analysis Program

FROM:           Robert W. Young /s/
                Assistant Inspector General
                  for Audit

SUBJECT:        Assessment of USDA’s Controls to Ensure Compliance with Beef Export Requirements


This report presents the results of the subject audit. Your response to the official draft, dated June
29, 2009, is included as exhibit E. Your response and the Office of Inspector General’s (OIG) position
are incorporated into the Findings and Recommendations section of the report. Based on your
response, we accepted management decision on four of the report’s five recommendations. Please
follow your agency’s internal procedures in forwarding documentation for final action to the Office of
the Chief Financial Officer.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective actions taken or planned for recommendation 4. Please note that the regulation requires
management decision to be reached on all recommendations within 6 months of report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during this
audit.
Executive Summary
Assessment of USDA’s Controls to Ensure Compliance with Beef Export Requirements
(Audit Report No. 50601-06-Hy)

Results in Brief                        In August 2007, the Chairman of the Budget Committee of the United States
                                        (U.S.) Senate asked the Office of Inspector General (OIG) to assess the Food
                                        Safety and Inspection Service’s (FSIS) export certification process because of
                                        concerns regarding the trade impact of exported U.S. beef product rejected by
                                        foreign countries. To assess the export certification process, we evaluated:
                                        (1) the United States Department of Agriculture’s (USDA) controls to ensure
                                        exported beef products comply with trade requirements; (2) the process for
                                        informing the agency and industry about export requirements; and
                                        (3) whether changes are needed to both the bilateral agreements and
                                        inspection personnel training to prevent recurring rejections. Further, we
                                        evaluated the Agricultural Marketing Service’s (AMS) and FSIS’
                                        implementation of prior OIG audit recommendations. 1 We concluded that
                                        AMS and FSIS had adequately implemented five of the six prior
                                        recommendations to improve the oversight of export activities. For the sixth
                                        recommendation FSIS updated guidance provided to supervisors as its
                                        corrective action; however, FSIS must ensure that supervisors implement this
                                        guidance by thoroughly assessing the export duties of inspection personnel.
                                        In addition, FSIS needs to strengthen its oversight by analyzing the reasons
                                        why foreign countries reject U.S. beef products when these products are
                                        presented for re-entry into the United States.

                                        AMS is responsible for reviewing and approving companies as eligible
                                        suppliers of beef products exported to foreign countries when such countries
                                        require companies to meet specific production standards. FSIS is responsible
                                        for ensuring that meat and poultry products exported to other countries are
                                        not adulterated and have met all U.S. food safety standards for sale in
                                        domestic or international commerce. In addition, FSIS is responsible for
                                        ensuring that, as required by trade agreements, 2 foreign country
                                        specifications are met prior to product being certified by FSIS for export. In
                                        December 2003, U.S. trade of beef was interrupted when Japan closed its
                                        border due to the identification of the first Bovine Spongiform
                                        Encephalopathy (BSE) case, commonly referred to as “mad cow disease,” 3 in
                                        the United States. This disruption in trade, that occurred in 2003, cost the
                                        U.S. economy approximately $1.4 billion. Although trade with Japan was
1
      Assessment of USDA’s Controls for the Beef Export Verification Program for Japan, Audit Report No. 50601-11-HQ, February 2006.
2
      Trade agreements specify how the foreign country prefers products to be processed, labeled, and packaged.
3
      BSE, widely referred to as “mad cow disease,” is a chronic degenerative disease that affects the central nervous system of cattle. BSE belongs to a
      family of diseases known as the transmissible spongiform encephlopathies, which include scrapie in sheep and goats, chronic wasting disease in deer
      and elk, and Cruetzfeldt-Jakob disease in humans.

USDA/OIG-A/50601-06-Hy                                                                                                                         Page ii
                                      reinstated in July 2006, Japan and other foreign countries, such as Mexico,
                                      South Korea, and Canada, continue to sporadically reject U.S. exports and
                                      ban U.S. establishments from exporting to their countries because they did
                                      not meet trade requirements, which negatively impacts the U.S. economy.
                                      From 2006 to 2008, the United States exported over 5.3 billion pounds of
                                      beef and beef products worth about $8.3 billion in export sales. From January
                                      2006 to October 2008, re-entry to the United States was requested for at least
                                      926 4 shipments, an estimated 37 million pounds of product, 5 rejected by
                                      foreign countries; however, these rejections were not always reported in the
                                      press.

                                      In order for banned establishments to resume trade with Japan and Korea,
                                      FSIS’ Office of Program Evaluation, Enforcement and Review (OPEER)
                                      conducted oversight investigations. Since 2006, OPEER has investigated a
                                      total of 18 highly publicized bans and rejections 6 and found, in 6 instances,
                                      inspection personnel had failed to follow FSIS guidance. 7 These employees
                                      were sanctioned by either written reprimand or were removed from
                                      performing export duties for a period of time.

                                      Audit Results

                                      The Chairman of the Budget Committee of the U.S. Senate questioned
                                      whether changes were needed to the bilateral agreements and the training
                                      process for inspection personnel to prevent recurring rejections. In addition,
                                      the Chairman questioned the adequacy of the process for informing all
                                      applicable personnel of export requirements (see Exhibit A). A review of the
                                      negotiation of bilateral agreements disclosed the Office of the U.S. Trade
                                      Representative and USDA’s Foreign Agricultural Service were responsible
                                      for negotiating the terms of the agreements with the foreign country, while
                                      FSIS provided technical advice and expertise in areas concerning food safety.
                                      Thus, we determined that FSIS identified and addressed concerns with the
                                      requirements imposed by the foreign countries. Additionally, a review of
                                      FSIS’ current training program disclosed FSIS had incorporated modules to
                                      instruct inspection personnel how to conduct export verification and
                                      certification procedures. FSIS and AMS implemented PartnerWeb 8 to inform
                                      agency and industry personnel about export requirements. However, we
                                      believe FSIS can further strengthen its controls by improving the oversight of
                                      beef exports. We found the following:



4
    We could not determine the exact number of shipments rejected during this period, because FSIS combined shipments when re-entry to the United
    States was requested. Of the 926 shipments rejected, 443 shipments were of beef and beef products. The remaining 483 shipments rejected consisted
    of various products including poultry, pork, and egg.
5
    According to FSIS, each container shipped holds approximately 40,000 pounds of product.
6
    Shipments were rejected because of mislabeled boxes, missing export certificates, and bones in products, among other concerns.
7
    The remaining 12 highly publicized bans and rejections were attributed to establishment errors.
8
    PartnerWeb is a shared website used by AMS and FSIS to convey to its users the approved product list for each participating establishment exporting
    products under the Beef Export Verification program.

USDA/OIG-A/50601-06-Hy                                                                                                                      Page iii
                                         • FSIS needs to analyze information collected about beef products rejected
                                           by foreign countries and presented for re-entry into the United States.
                                           Since January 2006, FSIS has informally tracked this data; however, the
                                           agency did not implement procedures to ensure it captured data that were
                                           consistent and complete. Moreover, FSIS did not require this data to be
                                           regularly analyzed to proactively identify areas for improvement in the
                                           export certification process. For example, we found that from
                                           January 2, 2006 to October 23, 2008, 222 shipments were rejected
                                           because of errors that occurred during the plant packaging process 9 (see
                                           Exhibit B). This occurred because FSIS appropriately handled food safety
                                           concerns immediately and only focused on commercial concerns10 when
                                           the rejection resulted in the establishment being banned from future
                                           exports or when the country closed its borders to U.S. exports. As a
                                           result, the continuous rejection of exports increases the risk of U.S. trade
                                           disruptions, which in the past have proven costly to the U.S. economy.

                                         • FSIS needs to monitor frontline supervisors (FLS) 11 to ensure they assess,
                                           at least once during the rating cycle, 12 all performance elements for
                                           inspection personnel performing export duties. For the two FSIS Districts
                                           reviewed, FLS did not assess all nine export performance elements during
                                           the fiscal year 2008 rating cycle (See Exhibit C). FLS were required to
                                           assess the 9 export performance elements for each of the 395 employees
                                           performing export duties each rating cycle. We found, however, they did
                                           not assess all 9 elements 68 percent 13 of the time during the period of
                                           August 2007 14 to September 2008. This occurred because the agency
                                           does not have procedures that require agency managers in the District
                                           offices to monitor whether FLS evaluate inspection personnel on all
                                           export performance elements. As a result, FSIS cannot be assured that
                                           inspection personnel perform all export duties as required, thus increasing
                                           the risk of shipments not meeting export requirements. For example, if
                                           FLS had assessed all performance elements, they might have identified
                                           issues with the export verification and certification process that could


9
     Errors occurring during the plant packaging process include mislabeled product, customer specifications not met, faulty packaging, and/or customer
     quality needs not met.
10
     Such concerns include mislabeling of products and missing export stamps.
11
     Frontline supervisors oversee in-plant inspection activities within each circuit in a district. Frontline supervisors’ duties include, but are not limited to:
     overseeing and coordinating the review, implementation, and assessment of in-plant inspection programs; using the In-Plant Performance System
     (IPPS) to guide, direct, and assess the overall performance of non-supervisory inspection personnel, and ensuring the comprehensive analysis of
     corrective actions to resolve noncompliances.
12
     A rating cycle normally consists of 12 calendar months (July 1 – June 30), however for the 2008 rating cycle, FSIS extended the end date until
     September 30, 2008. FLS are required to conduct, at minimum, two IPPS reviews in which they will assess all nine export performance elements at
     least once during the rating cycle.
13
     FSIS stated that some elements were not assessed for inspection personnel conducting export tasks because the elements were performed by other
     inspection personnel located in the establishment; as such the assessment of these elements would be not applicable. However, as discussed in finding
     2, FSIS managers were using “no” and “not applicable” interchangeably when reporting whether an export task was assessed; therefore it was unclear
     whether assessments not performed were applicable to the employee.
14
     Although the period we reviewed (August 2007 to September 2008) did not represent the entire rating cycle for 2008, we do not believe this had a
     material effect on our conclusion because FSIS traditionally does not perform the bulk of their IPPS assessments during the first month of the rating
     cycle.

USDA/OIG-A/50601-06-Hy                                                                                                                                 Page iv
                         have potentially prevented some of the 214 shipments from being rejected
                         by foreign countries for export processing errors (see Exhibit B).

                   Lastly, an assessment of prior audit work showed AMS and FSIS had fully
                   implemented five of the six recommendations (see Exhibit D). As discussed
                   previously, although FSIS added export performance elements as part of the
                   assessment of inspection personnel, FSIS supervisors were not assessing all
                   these elements when evaluating the performance of the inspection personnel.

                   We believe FSIS’ improvement of export oversight will allow the agency to
                   identify and address weaknesses in its export certification process, which
                   could result in the decrease of export rejections and prevent further
                   disruptions of U.S. trade.

Recommendation
In Brief           FSIS should establish and implement a process to periodically analyze
                   information collected during the re-entry of exported products rejected by
                   foreign countries. FSIS should also establish controls to ensure that results
                   obtained from the analysis of re-entry applications are used to identify
                   potential areas of improvement in the export certification process. In
                   addition, FSIS should establish a monitoring control to ensure supervisory
                   personnel have evaluated all export performance elements as required during
                   the rating cycle.

                   Agency Response.

                   FSIS agreed with the report’s 5 Recommendations. We have incorporated the
                   FSIS response in the Findings and Recommendations section of this report,
                   along with the OIG position. FSIS’ response to the draft report is included in
                   its entirety as Exhibit E.

                   OIG Position.

                   We accepted management decision for Recommendations 1, 2, 3, and 5. We
                   can accept management decision on Recommendation 4 once FSIS explains
                   how it will incorporate procedures to ensure District Managers/Deputy
                   District Managers certify FLS are assessing inspection personnel each rating
                   cycle.




USDA/OIG-A/50601-06-Hy                                                                    Page v
Abbreviations Used in This Report

AMS                 Agricultural Marketing Service
BEV                 Beef Export Verification
BSE                 Bovine Spongiform Encephalopathy
FAS                 Foreign Agricultural Service
FLS                 Frontline Supervisors
FSIS                Food Safety and Inspection Service
HACCP               Hazard Analysis and Critical Control Point
IID                 Import Inspection Division
IPPS                In-Plant Performance System
OIG                 Office of Inspector General
OPEER               Office of Program Evaluation, Enforcement and Review
U.S.                United States
USDA                United States Department of Agriculture
USTR                Office of the U.S. Trade Representative




USDA/OIG-A/50601-06-Hy                                                     Page v
Table of Contents

Executive Summary ................................................................................. iError! Bookmark not defined. 

Abbreviations Used in This Report ....................................................................................................... v 

Background and Objectives ................................................................................................................... 1 

Findings and Recommendations............................................................................................................ 5 

    Section 1            Oversight of the Export Process Needs to be Improved ......................................... 5 

        Finding 1  Re-Entry Data Should be Analyzed ............................................................................. 6 
                          Recommendation 1 .......................................................................................... 8 
                          Recommendation 2 .......................................................................................... 9 
                          Recommendation 3 ........................................................................................ 10 
        Finding 2  Assess All Export Performance Elements.................................................................. 10 
                          Recommendation 4 ........................................................................................ 13 
                          Recommendation 5 ........................................................................................ 13 

Scope and Methodology ........................................................................................................................ 15 

Exhibit A – Response to Congressional Inquiry Related to Export of U.S. Beef Products............ 18 
Exhibit B – Summary of Shipments Rejected and Presented for Re-entry..................................... 20 
Exhibit C – In-Plant Performance System Assessment Key ............................................................. 22 
Exhibit D – Implementation of Prior Audit Recommendations ....................................................... 23 
Exhibit E – Agency Response............................................................................................................... 24 




USDA/OIG-A/50601-06-Hy                                                                                                                Page vi
Background and Objectives
Background
                                      The United States Department of Agriculture’s (USDA) oversight of the beef
                                      export program is handled by the Agricultural Marketing Service (AMS) and
                                      the Food Safety and Inspection Service (FSIS). According to the United
                                      States (U.S.) Meat Export Federation, in 2008, the United States exported
                                      over 2 billion pounds of beef and beef products with a market value of over
                                      $3.3 billion in export sales. Although the United States exports various
                                      products to different countries around the world, as of November 2008, our
                                      major trading partners were Mexico, Canada, Egypt, Japan, and South Korea.
                                      Combined, the United States exports over 1.6 billion pounds (77 percent) of
                                      its beef products to these five countries, which was worth about $2.7 billion
                                      (80 percent). Each of these countries has elected to voluntarily participate in
                                      the AMS Beef Export Verification (BEV) program. In addition, there are
                                      19 other countries that have voluntarily elected to participate in the BEV
                                      program. 15 These countries chose to participate in the BEV program because
                                      it provides added assurance that beef exported would meet the foreign
                                      country’s requirements. Beef is also exported to countries that do not
                                      participate in the BEV program.

                                      FSIS is the public health regulatory agency of the USDA. As such, the
                                      agency protects consumers by ensuring that meat products are safe,
                                      wholesome, and accurately labeled. Under the Federal Meat Inspection Act,
                                      FSIS inspects all meat sold in interstate commerce to ensure that it meets
                                      U.S. food safety standards. For meat products exported to foreign countries,
                                      FSIS performs the tasks necessary to meet the foreign countries’
                                      requirements. 16

                                      Export Process

                                      The export of U.S. meat products to foreign countries is facilitated by the
                                      activities of several separate but interdependent entities: the U.S. meat
                                      industry; USDA’s FSIS, AMS, and Foreign Agricultural Service (FAS); and
                                      the Office of the U.S. Trade Representative (USTR).

                                      The U.S. meat industry is responsible for the slaughter of healthy animals and
                                      preparation of food products that are wholesome, properly labeled, and not
                                      adulterated. In addition to meeting U.S. food safety standards, the industry
                                      must meet requirements imposed by foreign countries to which the product is
                                      exported. For example, Japan imposed a requirement that all meat and meat


15
     Hong Kong, Lebanon, Singapore, Taiwan, Thailand, Vietnam, Belize, Cayman Islands, Chile, Dominican Republic, El Salvador, St. Kitts and Nevis,
     St. Lucia, Ukraine, Colombia, Malaysia, Panama, Peru, and Russia.
16
     FSIS performs similar inspections for poultry and processed egg products.

USDA/OIG-A/50601-06-Hy                                                                                                                   Page 1
                   products must be produced from cattle 20 months of age or younger. This is
                   one of several requirements included in the trade agreement with Japan.

                   AMS and FSIS are the agencies directly involved in assuring beef processing
                   establishments comply with trade agreements. AMS is responsible for
                   approving establishments as eligible suppliers of bovine meat and meat
                   products under its BEV program. The BEV program allows the foreign
                   country to specify the type of products it is willing to accept from the
                   individual establishment as well as specific processing and packaging
                   requirements. Exporting establishments have to be pre-approved by AMS and
                   the foreign country before the establishment is allowed to export any product.
                   AMS' BEV program is designed to encompass the requirements of foreign
                   countries that are not components of FSIS inspection activities. The BEV
                   program also provides documented assurance that a supplier is able to meet
                   those requirements. AMS' Audit, Review, and Compliance Branch audits
                   eligible establishments participating in the BEV program for compliance with
                   the program semi-annually.

                   FSIS applies the same inspection procedures for products being exported as it
                   does for products consumed domestically. FSIS' mission includes providing
                   assurance that exported beef and beef products meet the requirements of the
                   foreign countries as agreed during the trade negotiation. The combination of
                   a USDA mark of inspection, export certificate, and export stamps provides
                   assurance that U.S. meat products offered for export are certified as meeting
                   all U.S. food safety standards and the foreign country trade requirements. To
                   communicate foreign country requirements, FSIS maintains the export library
                   as a primary resource for use by inspection personnel to verify foreign
                   country requirements for products exported from the United States. The
                   export library contains relevant export documents and information including
                   export requirements for meat, poultry, and egg products, export related
                   notices and directives, and all eligible U.S. establishments. Moreover, the
                   export library includes requirements for countries that participate in AMS’
                   BEV program, as well as for countries that do not participate in the program.

                   The USTR is responsible for developing and recommending U.S. trade policy
                   to the President of the United States as well as conducting trade negotiations
                   at bilateral and multilateral levels with foreign countries. FAS is responsible
                   for conducting market development of U.S. agricultural products with foreign
                   countries, negotiating international trade agreements, and collecting statistical
                   and market information for USDA. USTR and FAS work closely to establish
                   specific trade policies between the United States and foreign countries for the
                   export of agricultural products. Along with these agencies, AMS and FSIS
                   provide technical expertise as needed to establish certain conditions of trade
                   to be adhered to by the U.S. meat industry in exporting product.



USDA/OIG-A/50601-06-Hy                                                                      Page 2
                                       Product that meets the conditions of trade as established by foreign countries
                                       is certified by FSIS as meeting these conditions. However, history has shown
                                       foreign countries refused and/or returned products to the United States
                                       because it did not comply with specified trade requirements. When product is
                                       refused entry due to a public health concern, the foreign country notifies FSIS
                                       of the rejection. However, product rejected due to commercial reasons such
                                       as processing, packaging and/or export certification errors, is not
                                       communicated to FSIS unless the owner of such shipments requests re-entry
                                       of products to the United States. FSIS has established a process to return
                                       product to the United States that was refused entry into foreign countries.
                                       This process is outlined in FSIS Directive 9010.1, Revision 1, United States
                                       Exported and Returned Products, dated September 5, 2007.

                                       FSIS is developing a Public Health Information System that will allow the
                                       agency to track activities in four modules: domestic inspection, import,
                                       export, and predictive analysis. The system integrates the agency’s numerous
                                       applications that collect information regarding inspection, enforcement,
                                       scheduling, modeling, and analysis. Although FSIS has stated this system
                                       would be fully implemented by the end of fiscal year 2009, as of
                                       December 2008, FSIS had not begun the design phase for the export module.

                                       Events Leading to this Audit

                                       In December 2003, the first case of Bovine Spongiform Encephalopathy
                                       (BSE), widely known as "mad-cow disease," 17 was found in the State of
                                       Washington. Since then, the effects of BSE have negatively impacted the
                                       U.S. beef export market. Major trading countries banned U.S. beef and beef
                                       products in December 2003 after the first case of BSE was identified.

                                       In October 2004, representatives from the Governments of Japan and the
                                       United States met in Tokyo to discuss the resumption of beef trade between
                                       the two countries. On December 11, 2005, the Secretary of Agriculture
                                       announced that the Japanese market was again open to accepting U.S. beef
                                       products, but only from age verified cattle 20 months or younger. On
                                       January 20, 2006, Japanese officials again halted the import of beef and beef
                                       products from the United States. This action was taken because veal product
                                       from a U.S. plant contained vertebral column, which was a violation of the
                                       agreement between the United States and Japan. As a result, the Secretary
                                       requested that the Office of Inspector General (OIG) identify the controls put
                                       in place to ensure beef products met the requirements of the BEV program
                                       for Japan, examine whether the controls broke down, and determine whether
                                       additional actions could be taken to ensure future compliance by responsible
                                       agency employees. OIG found that AMS and FSIS could strengthen their

17
     BSE, widely referred to as “mad cow disease,” is a chronic degenerative disease that affects the central nervous system of cattle. BSE belongs to a
     family of diseases known as the transmissible spongiform encephlopathies, which include scrapie in sheep and goats, chronic wasting disease in deer
     and elk, and Cruetzfeldt-Jakob disease in humans.

USDA/OIG-A/50601-06-Hy                                                                                                                        Page 3
                                      controls over the BEV program by improving processes used to communicate
                                      BEV program requirements, clearly defining roles and responsibilities, and
                                      implementing additional oversight of FSIS inspection personnel. Also, we
                                      found that the enforcement of compliance with BEV requirements broke
                                      down because the processes and documents used to communicate export
                                      requirements to inspection personnel were insufficient and non-specific. 18

                                      In July 2006, the United States and Japan resumed beef trade activities
                                      followed by other foreign countries reopening their markets. However,
                                      concerns over the export of beef and beef products from U.S. establishments
                                      still exist. Since the reopening of markets in July 2006, the press has reported
                                      at least 9 establishments banned from exporting to foreign countries. As a
                                      result, the Chairman of the Budget Committee of the U.S. Senate requested
                                      OIG perform work to determine why beef products inspected by FSIS
                                      inspection personnel were approved for export when, according to the foreign
                                      countries, they did not meet the conditions of trade. The specific questions
                                      raised by the Senator are included in Exhibit A.

Objectives                            Our overall objective was to assess USDA's controls to ensure exported beef
                                      products comply with trade requirements established with foreign countries.
                                      Specifically, we determined (1) whether FSIS personnel have repeatedly
                                      allowed shipments of beef products to be exported when they did not meet
                                      the conditions for export; (2) what steps FSIS has taken to ensure that
                                      licensed beef processors, exporters, and FSIS personnel are fully aware of the
                                      implementing procedures to comply with the specific terms of trade
                                      contained in bilateral agreements; (3) whether changes should be made in
                                      future bilateral agreements and if any changes are needed in training FSIS
                                      personnel to prevent the recurrence of these problems; and (4) whether AMS
                                      and FSIS have fully implemented corrective actions agreed to in OIG's prior
                                      audit report - "Assessment of USDA's Controls for the Beef Export
                                      Verification Program for Japan."




18
     Assessment of USDA’s Controls for the Beef Export Verification Program for Japan, Audit Report No. 50601-11-HQ, February 2006.

USDA/OIG-A/50601-06-Hy                                                                                                                Page 4
Findings and Recommendations
Section 1 Oversight of the Export Process Needs to be Improved

                                        The FSIS export certification process is designed to instill confidence in the
                                        foreign country that U.S. meat is safe and wholesome. The export
                                        certification includes a verification process in which FSIS verifies the
                                        product meets U.S. food safety requirements and the specific trade
                                        requirements of the foreign country. It also includes the official signing of the
                                        export certificate by FSIS officials stating the product has met all export
                                        requirements. When product is processed, packaged, and exported from an
                                        approved establishment, FSIS conducts a limited examination 19 of the
                                        product because FSIS managers rely on inspection personnel having been
                                        onsite to observe and inspect the slaughter, processing, and packaging of the
                                        product. When the product is transferred to a different establishment or cold
                                        storage facility prior to export, inspection personnel conduct a sensory
                                        inspection 20 of the product to ensure it has not been adulterated or become
                                        unwholesome since processing. If the sensory inspection results in suspicion
                                        of poor product handling and/or storage, inspection personnel may select up
                                        to 5 percent of the boxes for reinspection of the product and reject products
                                        as necessary. 21 Since packaging and quality errors may be related to single
                                        boxes within a shipment, there is an inherent risk to this inspection process
                                        that errors will not be detected and shipments that do not meet trade
                                        requirements will be exported. 22

                                        Currently, FSIS does not track shipments once the export certificate is issued
                                        because the agency’s responsibility ends once the product is certified as safe,
                                        wholesome, and ready for export. FSIS’ focus is food safety. FSIS maintains
                                        open communication with USDA’s FAS and the foreign countries to ensure
                                        any public health concerns are addressed immediately. However, there are
                                        many commercial reasons 23 for which foreign countries reject 24 U.S.
                                        shipments and on occasion these shipments are diverted to other countries, by
                                        the owner, without FSIS intervention. Unless a foreign country chooses to
                                        apply a sanction 25 or the product’s owner requests re-entry of the shipment to
                                        the United States, FSIS remains unaware of the status of shipments certified
                                        for export. FSIS only addresses these commercial issues when foreign
                                        countries delist establishments or choose to close borders.

19
     Inspection personnel inspect the shipments, paying close attention to indentify leakage or damaged boxes.
20
     A sensory inspection is when an inspector reviews the shipment to ensure there are no damaged boxes, no odor, no leaks, the temperature is correct, and
     boxes are properly labeled. Inspection personnel are not required to open the box, unless they identify signs of poor product handling and storage while
     conducting the sensory review.
21
     FSIS can reject the entire shipment or only the boxes affected.
22
     Shipments can include several hundred boxes, and unless a sensory inspection flags a problem FSIS is concerned that opening boxes outside the
     processing area may result in food safety consequences.
23
     Commercial reasons include both changes to the orders while product is in-transit and countries rejecting product because they had an excess of that
     type of product in the country.
24
     FSIS considers the shipment rejected when the foreign country refuses to allow the shipment to enter its borders.
25
     Sanctions may vary from simply rejecting the product without further recourse to much stronger actions like delisting the establishment or closing the
     borders.

USDA/OIG-A/50601-06-Hy                                                                                                                            Page 5
                                       We found that FSIS needs to implement procedures to consistently and
                                       completely capture and track data on shipments rejected by foreign countries
                                       and presented for re-entry into the United States. A structured analysis of this
                                       data could allow FSIS to proactively address concerns in the export process.
                                       We also found that frontline supervisors (FLS) did not always assess
                                       inspection personnel performance in the nine export performance elements.
                                       We found that the breakdown in the export verification process can be
                                       correlated to the elements not being assessed by the FLS because rejections
                                       were occurring in the areas in which the elements were not assessed. For
                                       example, from 2006 to 2008, 214 of the 926 rejections occurred due to such
                                       reasons as boxes missing export stamps and incorrect export documentation.

                                       FSIS should improve its oversight of exports by analyzing information
                                       collected during the approval of product re-entry. In addition, to strengthen
                                       its management process, FSIS should further analyze how supervisors are
                                       assessing inspection personnel, thus allowing FSIS to identify areas within its
                                       processes that need improvement.


Finding 1                              Re-Entry Data Should be Analyzed

                                       While attempting to determine the scope of export rejections, we found that
                                       since January 2006, FSIS has informally 26 tracked data about beef product
                                       exports rejected by foreign countries and presented for re-entry into the
                                       United States. However, the agency did not implement procedures to ensure
                                       it captured complete and consistent data. Moreover, FSIS did not require this
                                       data to be regularly analyzed to identify areas for improvement in the export
                                       certification process. According to FSIS officials, this occurred because the
                                       agency focused its resources on food safety and food defense 27 as opposed to
                                       export certification. While we agree with this prioritization of agency
                                       resources, FSIS should also enhance the agency’s oversight and analysis of
                                       beef products rejected by foreign countries because rejections can disrupt
                                       U.S. trade. From 2006 to 2008, the United States exported over 5.3 billion
                                       pounds of beef products valued at more than $8.3 billion. 28

                                       Federal regulation 29 states continuous monitoring and testing should help the
                                       agency identify poorly designed or ineffective controls. Further, they state the
                                       use of periodic reviews, reconciliation and comparison of data, and periodic


26
     Although FSIS has procedures for approving or denying requests for the re-entry of meat to the United States, there are no requirements for the agency
     to track or analyze the information being collected. FSIS created this informal tool to centralize the information being collected when it became too
     voluminous to maintain by individual employees.
27
     Food Defense is the protection of food products from intentional adulteration by biological, chemical, physical or radiological agents. It addresses
     additional concerns including physical, personnel, and operational security.
28
     United States Meat Export Federation (2008)
29
     Office of Management and Budget, Circular A-123 – Management’s Responsibility for Internal Control, issued December 21, 2004.

USDA/OIG-A/50601-06-Hy                                                                                                                           Page 6
                                       assessments should be integrated as part of management’s continuous
                                       monitoring of internal controls.

                                       Within FSIS, the Import Inspection Division (IID) is responsible for
                                       approving the re-entry of exported product to the United States. IID uses
                                       information recorded on FSIS Form 9010-1, Application for the Return of
                                       Exported Product, to approve re-entry. The application is designed to provide
                                       such information as: (1) the condition of the product and its immediate
                                       container; (2) the length of time the product was out of the country; (3) the
                                       conditions under which the product was held; (4) whether the product label is
                                       in compliance with U.S regulations; and (5) whether the product was refused
                                       entry by the foreign government and the circumstances behind the refusal.
                                       FSIS officials explained that if all of the necessary information was not
                                       recorded on this application, they would contact the applicant to obtain
                                       complete information. Information collected from the application is posted
                                       and maintained on an informal spreadsheet stored on the agency’s “shared
                                       drive.” 30 However, not all of the information as identified on the application
                                       is collected and recorded in the spreadsheet. 31 Because of the informal
                                       process by which the information is maintained, FSIS does not have guidance
                                       on how the data are recorded or should be analyzed.

                                       The information recorded on the spreadsheet provides a snapshot of the
                                       product re-entering the United States; however, the information as collected
                                       was not consistent. For example, we identified 92 of 926 entries on the
                                       spreadsheet where staff combined multiple rejections as 1 entry in the
                                       spreadsheet, thus skewing the number of actual shipments returned. Also, we
                                       found entries with vague descriptions of why the product was returned. For
                                       example, a shipment rejected by the foreign country indicated the reason for
                                       return was because of improper markings. To assess the adequacy of the
                                       information as recorded on the spreadsheet, we judgmentally selected 46 of
                                       926 applications for review. We determined that the information as collected
                                       was not complete. For example, only 1 of the 46 applications we reviewed
                                       included answers to the 10 questions as listed in the directive 32 and only 2 of
                                       46 had attached the refused entry form provided by the foreign country
                                       documenting the reason for the rejection. 33

                                       FSIS does not have guidance for staff to analyze the information collected
                                       during the re-entry process and staff does not conduct any type of analysis.
                                       We found that if FSIS grouped the causes for product rejections into specific
                                       categories, the agency could identify trends and other weaknesses in the

30
     A “shared drive” is a common network folder(s) that can be utilized for storing files that need to be viewed and/or maintained by multiple users.
     Generally the folder sharing is among users in a particular department or area within a department but can be extended across departments.
31
     For example: the establishment number, date product was produced, the weight of the product, number of cartons rejected, and the date product was
     released into United States commerce.
32
     FSIS Directive 9010.1, United States Exported and Returned Products, Revision 1, dated September 5, 2007.
33
     Although FSIS does not require applicants to attach the foreign country’s refused entry form, it may provide FSIS with a better explanation of why the
     shipment was refused entry to the foreign country.

USDA/OIG-A/50601-06-Hy                                                                                                                           Page 7
                                       export process. By analyzing the 926 entries 34 on the spreadsheet, we
                                       identified six summary categories to explain why shipments were refused
                                       entry by a foreign country (e.g., export processing errors and plant packaging
                                       errors) (see Exhibit B). For example, the spreadsheet showed foreign
                                       countries rejected product because shipments were missing such things as the
                                       statement of verification, export certificates, or the export stamp.
                                       Individually, these errors may appear irrelevant, however when grouped as
                                       “export processing errors,” the errors disclose weaknesses in the export
                                       verification process. Also, the analysis shows errors in this area have
                                       increased from 54 in 2006 to 88 in 2008. 35

                                       Since FSIS was not analyzing export shipments rejected by foreign countries
                                       and presented for re-entry to the United States, agency managers could not
                                       proactively address concerns in the export process. Instead, FSIS conducted
                                       investigations of export rejections only to reassure foreign countries 36 that
                                       banned establishments corrected the causes for rejection and met export
                                       requirements. From 2006 to 2008, FSIS’ Office of Program, Evaluation,
                                       Enforcement and Review (OPEER) investigated the events that led to the
                                       rejection of 18 shipments. Moreover, based on these investigations, OPEER
                                       performed 10 misconduct reviews and found 6 instances where inspection
                                       personnel had failed to follow FSIS guidance. 37 In our analysis of IID’s
                                       spreadsheet on rejected shipments, we found OPEER only investigated 5 of
                                       the 926 rejections. According to FSIS officials, they performed these
                                       particular investigations because the foreign country would not allow the
                                       banned establishments to resume exports without FSIS assurance that
                                       concerns were corrected.

                                       FSIS should expand its current oversight of rejected shipments to include
                                       analyzing the information collected during the re-entry of products rejected
                                       by foreign countries. In order to be able to conduct a thorough analysis, FSIS
                                       needs to establish controls to ensure appropriate, consistent, and complete
                                       information is collected during the re-entry request. Collecting and analyzing
                                       this information would allow FSIS to identify specific areas where
                                       improvement is needed before foreign countries impose restrictive actions
                                       against an establishment or the entire U.S. beef market.

Recommendation 1
                                       Identify the data to be recorded and analyzed regarding beef products rejected
                                       by foreign countries and presented for re-entry into the United States.




34
     Of the 926 entries, 489 rejections were by foreign countries participating in the beef export verification (BEV) program and the remaining 437 were
     rejections by foreign countries that did not participate in the program.
35
     The number of rejections for 2008 was as of October 23, 2008.
36
     FSIS has only conducted investigations for establishments delisted by Japan and Korea, which are countries that participate in the BEV program.
37
     The remaining 12 investigations were attributed to establishment errors.

USDA/OIG-A/50601-06-Hy                                                                                                                        Page 8
                   Agency Response.

                   Information regarding beef products rejected by foreign countries is recorded
                   during re-entry inspection on FSIS Form 9010-1. That form captures the
                   condition of the product, length of time the product was outside of the
                   country, conditions under which the product was held, product label
                   compliance, domestic establishment of origin, country refusing product, and
                   reason for foreign government product refusal. FSIS currently captures the
                   Form 9010-1 data in an excel spreadsheet and, as discussed in FSIS’ response
                   to Recommendation 2, will automate the collection of Form 9010-1 data in its
                   new Public Health Information System (PHIS) to improve the quality of data
                   collection.

                   FSIS’ Data Analysis and Integration Group (DAIG) will, on a quarterly basis,
                   analyze Form 9010-1 (and ultimately PHIS) data to identify trends in reasons
                   for product rejection by country, product type and establishment, with the
                   first analysis to be completed by December 31, 2009.

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 2
                   Implement procedures to ensure the data captured are complete and
                   consistently recorded.

                   Agency Response.

                   PHIS will automate the Application for the Return of Exported Product to the
                   United States (FSIS 9010-1) process. If applicable, the 9010-1 is pre-filled
                   with data from the Meat and Poultry Export Certificate of Wholesomeness
                   (FSIS 9060-5) that was issued for the product when it left the United States.
                   The applicant enters the remaining data that is required and submits the
                   application. PHIS will validate the application for completeness and
                   accuracy. PHIS will also provide the capability for the applicant to complete
                   and submit the return of exported products checklist. PHIS will route the
                   application to the Office of International Affairs (OIA). OIA staff will
                   review the application and checklist and determine whether to approve the
                   product’s return to the United States, to refuse the product’s return, or to
                   require re-inspection in order to gather additional information to make its
                   decision. OIA staff may request additional information from the exporter, if
                   needed. PHIS will issue notification of the outcome to the applicant.




USDA/OIG-A/50601-06-Hy                                                                   Page 9
                                         As stated on Recommendation 1, FSIS currently has a process to capture the
                                         Form 9010-1 data in an excel spreadsheet. This data will be analyzed on a
                                         quarterly basis.

                                         OIG Position.

                                         We accept FSIS’ management decision.

Recommendation 3
                                         Analyze the information collected to identify potential areas of improvement
                                         in the export certification process. Implement improvements as identified.

                                         Agency Response.

                                         In order to continuously improve the export process, the FSIS DAIG will, on
                                         a quarterly basis, analyze Form 9010-1 data to identify trends in reasons for
                                         product rejection by country, product type, and establishment. That
                                         information will be used, as needed, to develop guidance for inspectors
                                         conducting export verification activities and to modify related FSIS’ policies
                                         regarding export verification. The DAIG will complete the first such analysis
                                         by December 31, 2009.

                                         OIG Position.

                                         We accept FSIS’ management decision.

Finding 2                                Assess All Export Performance Elements

                                         For the two FSIS Districts reviewed, frontline supervisors (FLS) 38 did not
                                         assess all nine export performance elements during the fiscal year 2008 rating
                                         cycle (See Exhibit C). 39 FLS were required to assess the 9 export
                                         performance elements for each of the 395 employees performing export
                                         duties. We found that they did not assess all performance elements 68 percent
                                         of the time during the rating cycle. 40 This occurred because the agency does
                                         not have procedures that require agency managers in the District offices to
                                         monitor whether FLS evaluate inspection personnel on all export
                                         performance elements. As a result, FSIS cannot be assured that inspection
                                         personnel are accurately performing export duties to meet export certification

38
     Frontline supervisors oversee in-plant inspection activities within each circuit in a district. Frontline supervisors’ duties include, but are not limited to:
     overseeing and coordinating the review, implementation, and assessment of in-plant inspection programs; using IPPS to guide, direct, and assess the
     overall performance of non-supervisory inspection personnel; and ensuring the comprehensive analysis of corrective actions to resolve noncompliances.
39
     A rating cycle normally consists of 12 calendar months (July 1 – June 30); however, for the 2008 rating cycle, FSIS extended the end date until
     September 30, 2008.
40
     FSIS stated that some elements were not assessed for inspection personnel conducting export tasks because the elements were performed by other
     inspection personnel located in the establishment; as such the assessment of these elements would be not applicable. However, as discussed later in this
     finding, FSIS managers were using “no” and “not applicable” interchangeably when reporting whether an export task was assessed; therefore it was
     unclear whether assessments not performed were applicable to the employee.

USDA/OIG-A/50601-06-Hy                                                                                                                                Page 10
                                       requirements. Since 2006, foreign countries rejected at least 214 shipments
                                       due to errors that occurred during the export certification process (e.g., boxes
                                       missing export stamps and incorrect export documentation), which are
                                       performance elements FLS evaluate for inspection personnel.

                                       FSIS requires that supervisors conduct at a minimum two In-Plant
                                       Performance System (IPPS) assessments during the rating cycle assessing all
                                       performance elements at least once. If the supervisors cannot thoroughly
                                       assess all performance elements over the two assessments, or if they have the
                                       need to followup on issues identified previously, they are to conduct
                                       additional assessments to review these elements. 41

                                       In 2006, we recommended FSIS increase supervisory oversight of the export
                                       certification process by revising the IPPS review guidance to incorporate
                                       procedures that specifically evaluate the ability of inspection personnel to
                                       perform export certifications.42 In response to our recommendation, FSIS
                                       updated the IPPS process and the related Form 4430-8, In-Plant Performance
                                       System Assessment Sheet, to expand from one general export performance
                                       element to include nine specific performance elements for all employees
                                       responsible for certifying product for export.

                                       We analyzed the IPPS data 43 recorded for 2 of 15 Districts for
                                       August 1, 2007 44 to September 30, 2008, to determine whether FLS were
                                       assessing the inspection personnel performing export duties. We found that
                                       FLS did not assess export performance elements 68 percent of the time when
                                       conducting IPPS reviews for 395 inspection personnel. For example, we
                                       found that for the performance element “to review the completeness and
                                       verifying the accuracy of export documents,” FLS responded “no” or “not
                                       applicable” 575 of 615 times when the IPPS system asked if this element was
                                       assessed. 45 In addition, when asked to assess the element “assure that
                                       authorized export inspection sites met general sanitation and facility
                                       requirements,” FLS responded “no” or “not applicable” 605 of 614 times.
                                       FLS are required to assess all export duties at least once during the rating
                                       cycle. If the FLS evaluates the inspector when exports are not being produced
                                       or shipped, the FLS should ask the inspector to demonstrate how he/she
                                       would perform such export tasks. Therefore, we would expect a “no”
                                       response to be recorded only 50 percent of the total time IPPS reviews were
                                       performed. 46 FSIS district managers could not explain why FLS were not

41
     FSIS Directive 4430.3, Revision 1, In-Plant Performance System, dated November 18, 2005.
42
     Assessment of USDA’s Controls for the Beef Export Verification Program for Japan, Audit Report No. 50601-11-HQ, February 2006.
43
     Data were obtained from AssuranceNet, a management control system designed to provide in-depth management oversight of the public health
     activities carried out by inspection personnel.
44
     Although the period we reviewed (August 2007 to September 2008) did not represent the entire rating cycle for 2008, we do not believe this had a
     material effect on our conclusion because FSIS traditionally does not perform the bulk of their IPPS assessments during the first month of the rating
     cycle.
45
     We attempted to interview some FLS to determine why they answered “no” or “n/a” and did not obtain a specific answer.
46
     With the requirement to assess all export performance elements at least once, a “not applicable” response should not occur because all export
     performance elements have to be assessed for inspection personnel performing export duties.

USDA/OIG-A/50601-06-Hy                                                                                                                        Page 11
                                       assessing these elements, but were focused on meeting the requirements from
                                       AssuranceNet to review 10 percent of the reviews performed by FLS and
                                       1 percent of those reviews performed by FLS through direct observation.
                                       Further, managers were analyzing reports obtained from AssuranceNet that
                                       allowed them to determine whether FLS were conducting IPPS reviews at
                                       least twice per year. However, these reports did not include specific
                                       information identifying whether FLS had assessed all export performance
                                       elements while conducting the IPPS reviews, although this information could
                                       be queried in AssuranceNet.

                                       Since 2006, at least 214 of 926 shipments were rejected because of errors
                                       occurring during the export certification process, such as boxes missing the
                                       export stamp and export documentation with wrong dates.47 If FLS assessed
                                       all export elements, they could have identified and addressed weaknesses in
                                       the export process, thus potentially reducing the risk of foreign countries
                                       rejecting shipments. Without the proper export documents, shipments are
                                       subject to refused entry by the foreign country. Continuous refusal of
                                       shipments that do not meet foreign country requirements can ultimately
                                       impact U.S. trade when foreign countries close their borders to exported U.S.
                                       product.

                                       Finally, our analysis of IPPS data disclosed FLS used “no” or “not
                                       applicable” interchangeably. This occurred because they did not have clear
                                       guidance indicating when it was appropriate to use either response. For
                                       example, our analysis disclosed that FLS responded “not applicable” to
                                       export related performance elements 1,272 of 8,665 times. FSIS
                                       Headquarters officials could not confirm whether the response indicated the
                                       export performance element was not assessed or did not apply to the
                                       inspection personnel being evaluated. As such, according to FSIS officials,
                                       they revised the IPPS Supervisory Guide in December 2008 to address the
                                       miscommunication and assist FLS in performing comprehensive IPPS
                                       assessments. However, review of the revised guidance disclosed FSIS had
                                       not distinctly clarified when to use “no” or “not applicable”. FSIS stated, in
                                       some instances, that not all export performance elements may apply to the
                                       inspection personnel, which in this case is the only time a “not applicable”
                                       response should be recorded. 48 For all other instances, a “yes” or “no”
                                       response would be recorded.

                                       Although FSIS has improved its IPPS management tool, the agency needs to
                                       further strengthen its controls over IPPS to ensure that it is implemented and
                                       performed as designed. FSIS should incorporate further analysis of IPPS data
                                       to ensure all export performance elements are being assessed at least once
                                       during the rating cycle. Also, FSIS needs to provide further guidance to

47
     As described in FSIS Directive 9000.1, inspection personnel are to ensure that all supplemental documentation required by the foreign country to be
     submitted with the export certificate must contain dates that are consistent with the dates documented on the export certificate.
48
     A “not applicable” response would be recorded by the FLS if at the time of review, the establishment was not authorized to export product.

USDA/OIG-A/50601-06-Hy                                                                                                                      Page 12
                   supervisors to clarify the responses they should use when addressing the
                   performance elements.

Recommendation 4
                   Develop and implement procedures to ensure District managers confirm and
                   certify that frontline supervisors assess all export performance elements each
                   rating cycle for all employees performing export duties.

                   Agency Response.

                   In December 2008, FSIS issued a revision to the “Guide for Conducting IPPS
                   Assessments.” This Guide contains a section on how to assess export
                   verification and certification competence during an IPPS assessment. The
                   Guide specifically states “If the inspector or PHV’s assignment requires
                   him/her to conduct export certification activities, the supervisor must assess
                   the employee’s competency in export verifications and certifications during
                   the IPPS cycle, even if there are no exports to be done on the day of the IPPS
                   visit.” This statement is followed by instruction on what specifically to
                   assess. OFO sent a reminder email to the District Managers/Deputy District
                   Managers on May 11, 2009, reminding them to ensure that their Frontline
                   Supervisors and supervisors at the in-plant level assess export certification
                   elements at least once during the rating cycle.

                   Also, FSIS now has the capability to generate custom reports from
                   AssuranceNet that indicate which employees have been rated on the nine
                   export related performance elements during any reporting period indicated.
                   FSIS will provide them to the District Management teams so they can hold
                   their field supervisors accountable for assessing these elements for employees
                   performing export-related functions. These reports were issued in mid-May
                   2009.

                   OIG Position.

                   We do not accept FSIS’ management decision. Although FSIS has
                   developed procedures for the District Managers/Deputy District Managers to
                   confirm whether frontline supervisors are assessing inspection personnel,
                   these procedures do not include managers certifying that the assessments
                   were indeed completed.


Recommendation 5
                   Revise IPPS guide to clarify the responses supervisors should use when
                   assessing the individual performance elements.

                   Agency Response.

USDA/OIG-A/50601-06-Hy                                                                   Page 13
                   FSIS is in the process of revising the IPPS Directive and will ensure that it
                   provides explicit instructions to supervisors on the responses they should
                   provide when assessing individual performance elements. Specifically, if an
                   element applies to the employee but the supervisor is not assessing it on that
                   particular visit, it should be coded as “no.” If the element does not apply to
                   the employee’s position/assignment at all, it should be coded as “n/a.” We
                   expect the revised IPPS Directive to be published by October 1, 2009.

                   In addition, although FSIS updated the IPPS Guide in December 2008, FSIS
                   will be updating it again and will incorporate guidance on the “assessed”
                   column in the new version of the Guide, as well. The revised version of the
                   Guide will also be published by October 1, 2009.

                   OIG Position.

                   We accept FSIS’ management decision.




USDA/OIG-A/50601-06-Hy                                                                  Page 14
Scope and Methodology
                                      Our review focused on two agencies within USDA: AMS and FSIS. In
                                      addition, we met with FAS officials to understand their involvement in the
                                      export process. We performed fieldwork in Fredericksburg, Virginia;
                                      Washington, D.C.; and selected meat and processing establishments and cold
                                      storage facilities in Nebraska and Texas.

                                      To accomplish our objectives, we interviewed pertinent FSIS and AMS
                                      officials, examined pertinent documentation, reviewed applicable policies
                                      and procedures, and evaluated the effectiveness of management controls
                                      established by FSIS and AMS in response to our prior audit
                                      recommendations. 49 Specifically, we interviewed FAS officials to determine
                                      their oversight of tracking product refused entry by foreign countries that
                                      participate in the BEV program as well as their involvement in the
                                      establishment of trade agreements. We evaluated reports issued by FSIS’
                                      OPEER and OIG Investigations Office to determine the actions performed by
                                      industry personnel and FSIS inspection personnel that would cause product to
                                      be shipped when it did not meet the conditions for export.

                                      AMS

                                      We interviewed appropriate officials from AMS’ Audit, Review, and
                                      Compliance Branch to determine the agency’s responsibilities in the export
                                      of beef and beef products for countries participating in the BEV program,
                                      obtained and reviewed applicable documentation of AMS’ review of meat
                                      processing establishments that participate in the BEV program, and assessed
                                      AMS’ implementation of the prior OIG audit recommendations.

                                      FSIS

                                      To determine the adequacy of FSIS’ controls over exported beef products for
                                      countries participating in the BEV program, we met with personnel assigned
                                      to the following offices:

                                       • OPEER – responsible for assessing FSIS program functions and
                                         operations;
                                       • Office of International Affairs – responsible for leading international
                                         food safety activities;
                                       • Office of Field Operations – responsible for managing the national
                                         program of inspection and enforcement activities;
                                       • Office of Outreach, Employee Education and Training – responsible for
                                         providing direction of education resources and technical support.

49
     Assessment of USDA’s Controls for the Beef Export Verification Program for Japan, Audit Report 50601-11-HQ, February 2006.

USDA/OIG-A/50601-06-Hy                                                                                                            Page 15
                                       We obtained and analyzed data collected by IID for the period of
                                       January 2006 through October 2008 regarding the re-entry of product
                                       returned to the United States. These data were reviewed to determine why
                                       product was returned and identify any significant issue with the export
                                       verification and certification process. In addition, we selected and analyzed a
                                       judgmental sample of 46 of 926 50 re-entry request applications to determine
                                       if the process used by IID to allow product re-entry was adequate.

                                       Further, we analyzed the IPPS assessments, maintained in AssuranceNet, for
                                       the period of August 2007 through September 2008, to determine the type of
                                       supervisory oversight performed for export duties.

                                       Lastly, we assessed FSIS’ implementation of prior OIG                                                       audit
                                       recommendations related to our report issued in February 2006. 51

                                       Sampled Meat Processing Establishments

                                       To assess the handling of meat and meat products produced and exported to
                                       participating BEV countries, we conducted onsite visits to four eligible
                                       establishments that are inspected by personnel from Districts in Des Moines,
                                       Iowa and Dallas, Texas in September 2008. Specifically, these establishments
                                       were located in Omaha, Nebraska, and Amarillo and Cactus, Texas. We
                                       judgmentally selected these two Districts because they had the greatest
                                       number of eligible establishments approved to export product to at least 2 of
                                       the 3 countries we selected to review. We judgmentally selected
                                       establishments authorized to produce products for Japan and Korea, since
                                       these countries have rejected numerous shipments. A third country, Mexico,
                                       was selected because of its extensive volume of exported product,
                                       690 million pounds of beef. 52

                                       At the selected establishments, we held discussions with plant officials to
                                       obtain an understanding of the operations and the responsibilities of pertinent
                                       plant personnel. We reviewed the plants’ control documents including the
                                       Hazard Analysis and Critical Control Point (HACCP) plans, 53 Sanitation
                                       Standard Operating Procedures 54 and other related documents. We also
                                       observed the establishments’ operations to obtain an understanding of their
                                       slaughter, processing, and export activities; for example, reviewing the


50
     We judgmentally selected 46 re-entry applications for shipments that were rejected for errors that might have occurred during the export certification
     process and could potentially have been identified by inspection personnel.
51
     Assessment of USDA’s Controls for The Beef Export Verification Program for Japan, Audit 50601-11-HQ, February 2006.
52
     U.S. Meat Export Federation, as of September 2008.
53
     HACCP is a process that identifies areas where potential contamination can occur (critical control points or CCPs) and strictly manages and monitors
     these points as a way of assuring the process is in control. This process is designed to prevent rather than catch potential hazards.
54
     Sanitation Standard Operating Procedures are written procedures that an establishment develops and implements to prevent direct contamination or
     adulteration of product.

USDA/OIG-A/50601-06-Hy                                                                                                                         Page 16
                   application for export and ensuring export documents are properly signed and
                   dated by inspection personnel.

                   We conducted this performance audit in accordance with Government
                   auditing standards. Those standards require that we plan and perform the
                   audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                   for our findings and conclusions based on our audit objectives. We believe
                   that the evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.




USDA/OIG-A/50601-06-Hy                                                                  Page 17
Exhibit A – Response to Congressional Inquiry Related to Export of U.S. Beef
Products
                                                                              Exhibit A – Page 1 of 2



#                    Question                                    Results
1   Why has FSIS personnel repeatedly          FSIS’ guidance allows for limited sensory
    allowed shipments of beef products to be   inspections of shipments presented for
    exported when they did not meet the        export. This process does not require
    conditions for export?                     inspection personnel to open boxes unless
                                               the sensory inspection causes them to
                                               suspect there may be signs of product
                                               mishandling. Since packaging and quality
                                               errors may be related to single boxes within
                                               a shipment, there is an inherent risk that
                                               errors may not be detected during the
                                               inspection process.

                                               Although FSIS’ guidance instructs
                                               inspection personnel how to properly verify
                                               and certify beef products for export, they
                                               failed to follow it consistently to ensure
                                               product exported met foreign country
                                               requirements. For example, when FSIS’
                                               OPEER performed 20 investigations
                                               related to shipments of beef and beef
                                               products rejected by Japan and Korea, it
                                               found 6 instances where inspection
                                               personnel had failed to follow FSIS
                                               guidance.

                                               As discussed in Finding 1, FSIS processed
                                               re-entry applications for at least
                                               926 shipments rejected by foreign countries
                                               from January 2006 to October 2008. We
                                               found FSIS has not analyzed this
                                               information to proactively identify specific
                                               areas in the export process where
                                               improvements       may     prevent     future
                                               rejections. FSIS could improve its
                                               oversight of export activities by analyzing
                                               rejection information collected when
                                               re-entry to the United States is requested.



USDA/OIG-A/50601-06-Hy                                                                     Page 18
                                                                               Exhibit A – Page 2of 2

2   What steps has FSIS taken to ensure that    FSIS has taken several steps such as
    licensed beef processors, exporters, and    training and policy development to ensure
    FSIS personnel are fully aware of and       inspection personnel are aware of trade
    implementing procedures to comply with      requirements. Since 2006, FSIS has worked
    the terms of trade contained in the         closely with AMS to develop a shared web
    bilateral agreements?                       site (PartnerWeb) disclosing all approved
                                                product lists for countries participating in
                                                the BEV program. AMS maintains this site
                                                and is responsible for ensuring that all
                                                information remains current. The product
                                                lists are available and accessible to all
                                                parties involved in the export of product
                                                including industry, FSIS, and AMS
                                                personnel. FSIS inspection personnel are
                                                required to access this shared web site each
                                                time they perform export duties. Industry
                                                personnel are provided the information
                                                directly from AMS officials.
3   Should changes be made in future            Bilateral Agreements:
    bilateral agreements or are changes         We determined that changes to the bilateral
    warranted in training FSIS personnel to     agreements between the United States and
    prevent the recurrence of these problems?   foreign countries are not warranted at this
                                                time because FSIS provided USTR and
                                                FAS with technical advice when the terms
                                                of the agreements were being negotiated.
                                                Thus, FSIS had an opportunity to address
                                                during the negotiation any concerns with
                                                the requirements imposed by the foreign
                                                countries.

                                                Training FSIS Personnel:
                                                FSIS’ current training program includes
                                                information on the export certification
                                                process. As such, changes to the program
                                                are not warranted at this time. Further, we
                                                confirmed all applicable inspection
                                                personnel received the necessary training to
                                                perform their duties. However, as discussed
                                                in Finding 2, FSIS needs to strengthen its
                                                oversight of supervisory assessment of
                                                export duties. This will assure FSIS that
                                                inspection personnel are conducting their
                                                duties as required and trained.

USDA/OIG-A/50601-06-Hy                                                                     Page 19
Exhibit B – Summary of Shipments Rejected and Presented for Re-entry
                                                                                                                          Exhibit B – Page 1 of 2



                                    Plant            Plant          Product         Export
                                                                                                      Banned     Other
                                  Processing       Packaging        Quality        Processing                                  Total
                                                                                                     Shipments   Errors
                                   Errors           Errors          Errors          Errors
                   2006               19              106              36              54               88        49           352
                   2007               15               73              48              72               28        60           296
                   2008               19               43             104              88                0        24           278
                 Grand
                                      53              222             188             214              116       133           926
                 Total
              Percentage              6%             24%              20%             23%              13%       14%          100%

FSIS posted multiple causes for rejection of U.S. products when tracking re-entry requests from
January 2, 2006 to October 23, 2008. OIG grouped these multiple causes to identify potential areas of
weakness. OIG does not assert these categories are all inclusive.

Plant Processing Errors
       The foreign country rejected the products because of conditions the plant should have
       addressed prior to shipment, such as bones in the product.

Plant Packaging Errors
       The foreign country rejected the products because products were mislabeled, 55 did not meet
       customer specifications, had faulty packaging, and did not meet customer quality needs. These
       errors should have been addressed by the plant prior to shipping.

Product Quality Errors
      The foreign country rejected the products because of questions related to the quality of the
      products. This included among others: fecal contamination, mold, odors, e.coli, decomposing
      products, and products shipped near expiration date. These errors could have been detected by
      the establishment during the handling of products, as well as during FSIS inspections
      performed during the slaughter, processing, and packaging of products.

Export Processing Errors
       The foreign country rejected the product because of errors that could have been prevented
       during the export verification and certification process, such as boxes not stamped with an
       export certificate number, boxes missing labels, product listed on the export certificate not
       matching actual product exported, and misstatement of number of products being exported.




55
     The product inside the box does not match the product described on the label outside the box.

USDA/OIG-A/50601-06-Hy                                                                                                                 Page 20
                                                                                     Exhibit B – Page 2 of 2


Banned Shipments
      This group includes all shipments that were listed as banned by Japan in 2006 and Korea in
      2007; however, the information provided in the spreadsheet did not show if the ban occurred
      before or after FSIS inspection personnel certified the shipments.

Other Reasons
       This group includes all other rejections that had either a vague description or did not fit any of
       the previous categories. Some were rejected because of customer refusal to pay for products, a
       country had excess inventory of the particular product, or the product was sent to the wrong
       country.




USDA/OIG-A/50601-06-Hy                                                                            Page 21
Exhibit C – In-Plant Performance System Assessment Key
                                                                                       Exhibit C – Page 1 of 1

This exhibit outlines the question code and applicable export question as assessed by FLS when
performing IPPS reviews.



 Export Question                                       Export Question
     Code
EX8A1              Evaluates and certifies products for export by assuring that products approved for export
                   are in compliance with laws, regulations, and foreign country requirements.
EX8A2              Verifies the accuracy of labels and inspection certificates.
EX8B               Examines product and containers to determine wholesomeness and that export
                   requirements are met.
EX8C               Performs product reinspection in accordance with applicable laws, rules, and regulations.
EX8D               Assures the security of export stamps and monitors the marking of products.
EX8E               Notifies parties of product refused for export; explains and interprets requirements.
EX8F               Prepares required export records and certificates.
EX8G               Completes and verifies the accuracy of export documents.
EX8H               Assures that all authorized inspection sites meet general sanitation and facility
                   requirements.




USDA/OIG-A/50601-06-Hy                                                                              Page 22
Exhibit D – Implementation of Prior Audit Recommendations
                                                                                        Exhibit D – Page 1 of 1



This exhibit addresses implementation of recommendations provided in Audit Report No.
50601-11-HQ, “Assessment of USDA’s Controls for the Beef Export Verification Program for Japan,”
February 2006

#              Prior Audit Recommendation                         Corrective Action Implemented
1   AMS should include on its website the specific beef                        Yes
    products each plant has been approved to export.

2   AMS and FSIS should jointly develop an operational                         Yes
    process (compensating controls) that requires
    confirmation of the eligibility of both the plant and
    the products for export, prior to FSIS certifying
    export documents

3   AMS should work with plant personnel to revise the                         Yes
    Quality System Assessment/BEV manuals to include
    the specific products and any additional process
    control requirements determined to be necessary for
    the BEV program for Japan

4   FSIS should clarify the roles and responsibilities of                      Yes
    FSIS personnel involved at every stage of the export
    certification process.

5   FSIS should expedite the development of training on                        Yes
    export certification for Consumer Safety Inspections.
    FSIS should also incorporate a proficiency test for
    those assigned to perform export certification.

6   FSIS should increase supervisory oversight of the       Although FSIS incorporated procedures for
    export certification process by revising the IPPS       export certification to its IPPS guidance,
    review guidance to incorporate procedures that          supervisors have not implemented these
    specifically evaluate the ability of inspection         procedures as instructed. See Finding 2
    personnel to perform export certifications.




USDA/OIG-A/50601-06-Hy                                                                               Page 23
Exhibit E – Agency Response
                              Exhibit E – Page 1 of 3




USDA/OIG-A/50601-06-Hy                     Page 24
                         Exhibit E – Page 2 of 3




USDA/OIG-A/50601-06-Hy                Page 25
                         Exhibit E – Page 3 of 3




USDA/OIG-A/50601-06-Hy                Page 26
Informational copies of the report have been distributed to:

Administration: FSIS
       ATTN: Agency Liaision Officer (6)
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
